No. 20-1541

In The

Supreme Court of the United States
PIVOTAL SOFTWARE, INC., ET AL.,
Petitioners,

v.
SUPERIOR COURT OF CALIFORNIA, CITY AND COUNTY OF SAN FRANCISCO, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE COURT OF APPEAL FOR THE STATE
OF CALIFORNIA, FIRST APPELLATE DISTRICT
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF JOINT APPENDIX

CORPORATE DISCLOSURE STATEMENT
The corporate disclosure statement included in the petition for a writ of
certiorari remains accurate.

i

Pursuant to Rule 26.8 of the Rules of this Court, petitioners respectfully seek
leave to dispense with the requirement of a joint appendix in this case.
The question presented in this case is a question of law. That question is:
Whether the Private Securities Litigation Reform Act’s discovery-stay provision (15
U.S.C. § 77z-1(b)(1)) applies to a private action under the Securities Act in state or
federal court, or solely to a private action in federal court.
The orders of the California Supreme Court, California Court of Appeal, and
California Superior Court, along with certain additional materials, are included in
the appendix to the petition for a writ of certiorari. In petitioners’ view, no other
portion of the record merits special attention such as would warrant the preparation
and expense of a joint appendix. Nor would preparation of a joint appendix materially
assist the Court’s consideration of the case.
Petitioners are authorized to state that plaintiffs-respondents Zhung Tran,
Alandra Mothorpe, and Jason Hill agree that a joint appendix is not necessary in this
case.

July 15, 2021

Respectfully submitted,

ROMAN MARTINEZ
MELISSA ARBUS SHERRY
ANDREW B. CLUBOK
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Washington, DC 20004
ELIZABETH L. DEELEY
GAVIN M. MASUDA
JOSEPH C. HANSEN
LATHAM & WATKINS LLP
505 Montgomery Street
Suite 2000
San Francisco, CA 94111

By_____________________________
DEANNE E. MAYNARD
Counsel of Record
JOSEPH R. PALMORE
LENA H. HUGHES
ADAM L. SORENSEN
MORRISON & FOERSTER LLP
2100 L Street, NW
Washington, DC 20037
(202) 887-8740
dmaynard@mofo.com
JORDAN ETH
MARK R.S. FOSTER
JAMES R. SIGEL

MORRISON & FOERSTER LLP

Counsel for Petitioners Morgan
Stanley & Co. L.L.C., Goldman
Sachs & Co. L.L.C., Citigroup
Global Markets Inc., Merrill
Lynch, Pierce, Fenner & Smith
Inc., Barclays Capital Inc.,
Credit Suisse Securities (USA)
L.L.C., RBC Capital Markets,
L.L.C., UBS Securities L.L.C.,
Wells Fargo Securities L.L.C.,
KeyBanc Capital Markets Inc.,
William Blair & Company,
L.L.C., Mischler Financial
Group, Inc., Samuel A.
Ramirez & Co., Inc., Siebert
Cisneros Shank & Co., L.L.C.,
and Williams Capital Group,
L.P. (the latter two, Siebert
Williams Shank & Co., L.L.C.)

425 Market Street
San Francisco, CA 94105
Counsel for Petitioners Pivotal
Software, Inc., Robert Mee,
Cynthia Gaylor, Paul Maritz,
Michael Dell, Zane Rowe, Egon
Durban, William D. Green,
Marcy S. Klevorn, and Khozema
Z. Shipchandler
(filed on behalf of and with the
consent of counsel for all
Petitioners)

Counsel for Petitioners Continued Below

2

JOHN L. LATHAM
ANDREW T. SUMNER
ALSTON & BIRD LLP
One Atlantic Center
1201 West Peachtree Street
Suite 4900
Atlanta, GA 30309
GIDON M. CAINE
ALSTON & BIRD LLP
1950 University Avenue
Suite 430
East Palo Alto, CA 94303
Counsel for Petitioner Dell
Technologies Inc.

3

